No. 20-155

 

 

IN THE

Supreme Court of the United States

NEW ENGLAND TEAMSTERS AND
TRUCKING INDUSTRY PENSION FUND,

Petitioner,
v.

SUN CAPITAL PARTNERS III, LP;
SUN CAPITAL PARTNERS III QP, LP;
AND SUN CAPITAL PARTNERS IV, LP,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the First Circuit

BRIEF FOR AMICUS CURIAE
BETTER MARKETS, INC.,
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,665 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 14, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
